HHS/OIG, Audit - "Review of Missouri Medicare Part D Contributions to the
Centers for Medicare & Medicaid Services for "Full-Duals,"" (A-07-07-01044)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Missouri Medicare
Part D Contributions to the Centers for Medicare & Medicaid Services for
"Full-Duals,"" (A-07-07-01044)
June 23, 2008
Complete Text of Report is available in PDF format (1.27 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
From January through December 2006, the Missouri Department
of Social Services did not always make a corresponding contribution payment
to the Centers for Medicare & Medicaid Services (CMS) on behalf of Medicaid
recipients who were also eligible for Medicare (full-duals).  Federal regulations require States to make contribution payments to CMS
to defray a portion of the costs of the Medicare Part D program.
Our review found that for 98 of 100 statistically sampled
beneficiary-months, Missouri (1) was not required to make contributions to CMS
because the beneficiaries were not actually full-duals in the sampled months or
were not identified in the States Medicaid eligibility records or (2) made
subsequent retroactive contributions to CMS.  However, contrary to Federal
requirements, Missouri did not make contributions to CMS for 2 of the 100
sampled beneficiary-months.  Specifically, the State did not correctly identify
either of the 2 beneficiaries as a full-dual.  As a result of the discrepancies,
the State did not make $216 in contributions to CMS that it should have made.
We recommended that Missouri (1) remit $216 to the Federal
Government on behalf of the two individuals who were not correctly identified as
full-duals, (2) ensure that required contributions are identified and made for
all full-duals, and (3) identify and accurately report all full-duals to CMS.
In written comments on our draft report, the State concurred with all of our
recommendations.